                                  UNITED STATES DEPARTMENT OF EDUCATION
                                                       OFFICE OF INSPECTOR GENERAL



                                                                December 14, 2009
                                                                                                                     Control Number
                                                                                                                     ED-OIG/I13J0005

Dr. Elizabeth H. Sibolski
President
Middle States Commission on Higher Education
3624 Market Street
Philadelphia, PA 19104


Dear Dr. Sibolski:

This final management information report, entitled Review of the Middle States Commission on
Higher Education’s Standards for Program Length, presents the results of our inspection.

The objectives of this inspection were to determine: (1) what guidance Middle States provides to
institutions regarding program length and credit hours, (2) what guidance Middle States provides
to peer reviewers to assess program length and credit hours when evaluating institutions, and (3)
what documentation Middle States maintains to demonstrate how it evaluates institutions’
program length and credit hours. We found that Middle States does not have minimum
requirements specific to program length and does not have minimum requirements for the
assignment of credit hours. The lack of requirements could result in inflated credit hours, the
improper designation of full-time student status, and the over-awarding of Title IV funds.



                                                         BACKGROUND


Accrediting agencies are private educational associations that develop evaluation criteria and
conduct peer evaluations of institutions of higher education to ensure that the education provided
by those institutions meets acceptable levels of quality. The U.S. Department of Education does
not determine the quality of education funded by Federal education dollars; however, the
Secretary recognizes accrediting agencies to serve as reliable authorities for the quality of
education.

In 2008, there were 7 regional accrediting agencies that accredited 2,897 institutions of higher
education. These institutions received $74.8 billion in Title IV funding. 1 The Middle States
Commission on Higher Education accredits institutions in Delaware, the District of Columbia,

1
 Title IV funding is federal student financial aid provided through the Federal Stafford Loan, the PLUS Loan, the
Federal Perkins Loan, the Federal Pell Grant, the Academic Competitiveness Grant, the National Science &
Mathematics Access to Retain Talent Grant, the Federal Supplemental Educational Opportunity Grant, and Federal
Work Study programs.

    The Department of Education's mission is to promote student achievement and preparation for global competitiveness by fostering educational
                                                      excellence and ensuring equal access.
Maryland, New Jersey, New York, Pennsylvania, Puerto Rico, and the U.S. Virgin Islands.
Institutions accredited by Middle States received $14 billion of the $74.8 billion in Title IV
funding in 2008.

Middle States has 10 requirements for affiliation that are required for an institution to be eligible
for candidacy status, initial accreditation, or reaffirmation of accreditation. Prior to membership
and accreditation by Middle States, an institution enters a candidacy phase that can last up to five
years. Middle States has 14 standards in addition to the 10 requirements for affiliation that its
institutions must meet prior to initial accreditation or reaffirmation of accreditation; seven focus
on institutional context and seven focus on educational effectiveness. Middle States reviews
institutions’ compliance with the 14 standards through decennial accreditation reviews and other
periodic on-site evaluations and reports. Between the 2003-04 and 2007-08 academic years,
Middle States conducted 283 decennial accreditation review site visits.



                                     REVIEW RESULTS


The objectives of this inspection were to determine:

   (1) What guidance Middle States provides to institutions regarding program length and credit
       hours,
   (2) What guidance Middle States provides to peer reviewers to assess program length and
       credit hours when evaluating institutions, and
   (3) What documentation Middle States maintains to demonstrate how it evaluates
       institutions’ program length and credit hours.

Section 496(a)(5)(H) of the Higher Education Act, as amended, requires accrediting agencies to
establish accreditation standards that assess the institution’s measures of program length.

We found that Middle States does not have minimum requirements specific to program length
and does not have minimum requirements for the assignment of credit hours. The lack of
requirements could result in inflated credit hours, the improper designation of full-time student
status, and the over-awarding of Title IV funds.

Middle States senior staff stated that their main focus was on student learning outcomes;
however, we did not find that Middle States provided any guidance to institutions and peer
reviewers on minimum outcome measures to ensure that courses and programs are sufficient in
content and rigor.




                                                 2
Issue No. 1    Middle States Guidance to Institutions on Program Length and Credit Hours

We found that Middle States provides some guidance to institutions on program length and credit
hours; however, it does not have minimum requirements for institutions concerning program
length or the assignment of credit hours.

To be eligible for Middle States candidacy status, initial accreditation, and reaffirmation of
accreditation, Middle States requires the institution to be in compliance with all applicable
Federal or state government policies, regulations, and requirements. We found that Maryland,
New Jersey, New York, Pennsylvania, and Puerto Rico have regulations requiring that
institutions be in compliance with a state-defined credit hour. Delaware, the District of
Columbia, and the Virgin Islands do not have regulations addressing requirements for credit
hours (see Appendix).

The institutions in five of the six decennial accreditation reviews in our sample (see page 10)
were from States with regulatory definitions of a credit hour. In one of the five reviews, we saw
references to the State credit hour requirements, but there was no indication of whether or how
these requirements were considered in Middle States’ accreditation decisions.

Middle States’ Characteristics of Excellence in Higher Education outlines Middle States’
requirements of affiliation and standards for accreditation. Under the description for one of its
standards, Middle States specifies that an accredited institution is expected to have educational
offerings that are congruent with its mission, which include appropriate areas of academic study
of sufficient content, breadth and length, and conducted at levels of rigor appropriate to the
programs or degrees offered. Middle States, however, does not provide requirements in the
standards on minimum program length or requirements specific to the assignment of credit
hours.

Middle States recently published guidelines on degrees and credit hours. The guidelines, with an
effective date of June 26, 2009, state that Middle States considers the assessment evidence to be
the most compelling evidence that an institution’s academic offerings are of appropriate
academic content, breadth, length, and rigor. The guidelines provide definitions from federal
sources and state that Middle States recognizes that it is appropriate for relevant government
agencies to set reasonable and suitable expectations for time spent earning degrees. The
guidelines state that Middle States is providing these definitions as a reminder to institutions and
that they are not Middle States requirements. While Middle States provides that assessment
results are the most important evidence on program length and the assignment of credit hours, it
does not provide minimum requirements that institutions must meet to ensure that academic
offerings are of appropriate academic content, breadth, length, and rigor.

Middle States does provide minimum requirements for the number of credit hours in general
education for associate degree programs and baccalaureate programs; however, these
requirements do not address the appropriateness of overall program length or the assignment of
credit hours.




                                                 3
In an interview with Middle States senior staff, they did not disagree with our conclusion that
Middle States does not provide any requirements to institutions on minimum program length and
the assignment of credit hours. Middle States senior staff stated that their main focus was on
student learning outcomes.

Issue No. 2    Middle States Guidance to Peer Reviewers on Program Length and Credit
               Hours

We found that Middle States provides some guidance to peer reviewers on program length and
credit hours; however, it does not have minimum requirements for institutions concerning
program length or the assignment of credit hours.

As noted above, Middle States recently published guidelines on degrees and credit hours;
however, these guidelines are not Middle States requirements for institutions on minimum
program length or on the assignment of credit hours.

Middle States provides instruction to peer reviewers through training presentations and manuals,
including two basic training sessions for evaluators and additional intermediate training sessions
on select standards. Two training items pertained to the assignment of credit hours, though
neither example provided guidance to peer reviewers specific to determining the appropriateness
of an institution’s assignment of credit hours.

One presentation specifically addresses the assignment of credit hours for certificate programs,
experiential learning, branch campuses, distance learning, and contractual relationships. The
presentation presents questions that peer reviewers should ask concerning the assignment of
credit hours for these types of learning; however, it does not provide guidance specific to credit
hours or program length. For example, on the experiential and distance learning slides, there are
questions related to academic quality and rigor, though there is no guidance on how to determine
the appropriateness of an institution’s assignment of credit hours.

Middle States also developed an example of an evaluation team report for one of its training
sessions. This example refers to issues of assignment of credit hours for experiential and
distance learning. The example does not provide guidance on how to evaluate the assignment of
credit hours or program length.

The other resources primarily provided information on the procedural steps for accrediting,
logistical steps for site visits, and a general overview of the responsibilities of peer reviewers.

The training materials did not reference steps that peer reviewers should take to ensure that
institutions were in compliance with state credit hour requirements. The training materials also
did not provide a process for how to evaluate whether a course had the appropriate rigor or
length. Middle States senior staff stated that most peer reviewers are knowledgeable
academicians who already have a good understanding of academic rigor and the appropriate
number of credit hours. The titles of the peer reviewers used for decennial accreditations
indicate that the peer reviewers come from senior positions at their home institutions.



                                                  4
As stated above, Middle States senior staff stated that their main focus was on student learning
outcomes.

Issue No. 3    Middle States Documentation to Demonstrate Evaluation of Institutions’
               Program Length and Credit Hours

We found that Middle States does not maintain documentation to demonstrate how it evaluates
institutions’ program length and credit hours. We reviewed Middle States’ accreditation
documentation for:

   •   One institution seeking initial accreditation,
   •   Five institutions seeking reaccreditation,
   •   Three institutions with recent substantive changes to their programs, and
   •   Three institutions seeking candidacy for accreditation

Initial Accreditation and Reaccreditation
We reviewed Middle States’ documentation for its decennial review of six institutions—one
institution seeking initial accreditation and five institutions seeking reaccreditation. Middle
States allows institutions seeking reaccreditation the option to submit a selected topics self-study
if the institution was in good standing and there were no concerns regarding the institution’s
compliance with Middle States’ standards. Of the five institutions seeking reaccreditation in our
sample, four did a selected topics self-study. The remaining institution seeking accreditation and
the institution seeking initial accreditation did a full self-study.

Middle States senior staff stated when an institution did a selected topics self-study, a team
would review the institution’s compliance with all the standards in a separate site visit using
support provided by the institution. The supporting documentation is summarized through a
“document roadmap.” We could not evaluate the level of review performed by the teams for
institutions with a selected topics self-study because the document roadmaps for the institutions
in our sample were not available and the team reports on compliance with the standards did not
reference the basis for determining compliance with the standards. Middle States senior staff
stated that they have since implemented a policy to retain all document roadmaps.

Middle States also provided an example of an institution’s document roadmaps. One document
roadmap identified documents related to standards that were not addressed in the self-study. The
other document roadmap identified the institution’s documentation detailing the curriculum for
specific courses. Although these roadmaps show that an institution took steps to address all of
Middle States’ standards, they do not document Middle States’ analysis of the documentation.

The institutions in five of the six reviews were located in States with regulatory definitions of a
credit hour. Although there are instances where these institutions presented information on the
content and rigor of a program, we did not find that Middle States had a process for reviewing
the appropriateness of the institutions’ determinations. Some institutions had a process of
programmatic review to evaluate rigor, but Middle States does not have a requirement for
institutions to implement this type of process and has not issued guidance on what would
constitute an acceptable process of programmatic review.

                                                  5
Substantive Changes
We reviewed five substantive change requests for new programs in three institutions. Three of
the five substantive change requests were in States with regulatory definitions of a credit hour.
Two of these requests reference the program approval process, with one specifically addressing
the responsibility for assignment of credit hours to courses. These two programs were also being
evaluated by programmatic accreditors.

The remaining two substantive change requests, both from an institution operating in Delaware,
did not reference how credit hours were assigned or any process at the institution for evaluating
and approving new courses and programs. Middle States denied one of the substantive change
requests involving a graduate-level program because its coursework was not of sufficient content
and rigor. Middle States’ determination indicates that there is an acceptable minimal level of
content and rigor for assigning credit hours to graduate level work; however, Middle States has
not defined this level.

Candidacy
Middle States senior staff stated that they focused on program length during the institution’s
initial candidacy period. We reviewed Middle States’ documentation for three institutions
seeking candidacy. For two of the three institutions, we did not find evidence that Middle States
focused on the appropriateness of program length. For all three institutions, we did not find
evidence that Middle States focused on the assignment of credit hours.

Middle States’ Perspective

Middle States senior staff recognized that they did not have a clearly defined definition of a
credit hour, but the senior staff stated that their main focus was on student learning outcomes.
The senior staff stated that regional accreditation focuses more on outcomes and evidence of
competency. For example, the senior staff stated that they ensure that the makeup of the faculty
is appropriate, and the faculty would in turn ensure that the curriculum is appropriate. The
faculty may not need a defined process for evaluating a course, since they may discover
problems concerning rigor through monitoring and informal review.

Middle States senior staff stated that they rely on the expertise of their peer reviewers. Peer
reviewers look for comparable programs when evaluating accelerated programs. Middle States
senior staff stated that, because accredited institutions are members of a peer organization, the
perception of their own quality would be diminished if a suspect institution was accredited.

Middle States senior staff stated that the National Center for Educational Statistics (NCES) and
the Integrated Postsecondary Education Data System (IPEDS) define a credit hour and stated that
they believed the definitions were clear. Middle States provides the definitions to institutions as
a reminder. They stated that a good starting point for a credit hour is the Carnegie definition.
The senior staff stated that they believed that more disciplinary associations should focus on
rigor, and detail what a course or degree would entail.




                                                6
Office of Inspector General (OIG) Conclusion

Title IV funding for students is based on the number of credit hours a student takes. Middle
States does not have requirements specific to program length and does not have a definition of a
credit hour. Middle States senior staff stated that they focus on outcomes; however, Middle
States does not have any minimum requirements for outcomes to ensure that courses and
programs are sufficient in content and rigor. The lack of minimum requirements for credit hours
and the assignment of credit hours could result in inflated credit hours, the improper designation
of full-time student status, the over-awarding of Title IV funds, and excessive borrowing by
students, especially with distance, accelerated, and other programs not delivered through the
traditional classroom format.



                             MIDDLE STATES COMMENTS


On September 29, 2009, we provided Middle States with a copy of our draft management
information report for comment. We received Middle States’ comments to the report on October
28, 2009. Middle States acknowledged that the draft report accurately reflected the OIG’s
findings, but reiterated that it has a different philosophy with regard to the use of credit hours and
program length as a measure of quality in higher education.

Middle States Comments
Middle States stated it provides information to institutions on existing Federal and State
definitions and requirements with regard to credit hour, program length by degree, term length,
etc. Middle States stated that the Federal definitions are very clear and state licensing
requirements establish minimums in all but three of Middle States’ states.

OIG Response
Middle States’ degrees and credits guidelines, published June 26, 2009, includes material from
three federal sources: 1) the Title IV statute and regulations; 2) the glossary of terms used by the
National Center for Education Statistics for data collection and reporting in the Integrated
Postsecondary Education Data System; and 3) material published by the U.S. Network for
Education Information describing common practices of the U.S. system of education for
international educators and students. None of these definitions and materials defines instruction
or explains how to determine credit hour equivalence in programs delivered by different methods
of instruction, particularly instruction that is not provided in the traditional classroom and lecture
format. In states with regulatory definitions of a credit hour, the definitions of a credit hour are
similarly limited. Therefore, Middle States cannot rely on federal and state laws, regulations,
and other materials mentioned in its guidelines to meet its obligation to establish effective
standards of program length.

Middle States Comments
Middle States noted that recent research and evidence indicates that the fundamental concern of
higher education’s constituencies is whether students graduate with appropriate knowledge,
skills, and competencies, not how many hours they spend in a classroom. Middle States also
                                                  7
stated that through an institution’s self-study report and in the on-site evaluation by a team of
peers, the institution must demonstrate that it has offerings that are of sufficient content, breadth,
and length, and conducted at levels of rigor appropriate to the programs or degrees offered.
Middle States stated that because its member institutions vary widely in mission and offerings, it
does not prescribe one particular methodology for ensuring and documenting an appropriate
level of rigor.

OIG Response
Whether a student graduates with appropriate knowledge, skills, or competencies does not
obviate the need to properly determine program length or the assigned credit hours. Title IV
funding for students is based on the number of credit hours a student takes. The lack of
minimum requirements for credit hours and the assignment of credit hours could result in
inflated credit hours, the improper designation of full-time student status, the over-awarding of
Title IV funds, and excessive borrowing by students, especially with distance, accelerated, and
other programs not delivered through the traditional classroom format. Even if student outcomes
can inform the assignment of credit hours, Middle States does not, as noted in our report, provide
minimum requirements that institutions must meet to ensure that academic offerings are of
appropriate academic content, breadth, length, and rigor. It is incumbent on Middle States to
determine the appropriate assignment of credit hours and to define an acceptable minimum
outcome.

Middle States Comments
Middle States stated that it provided OIG with additional reports and OIG reviewed the reports,
but because the reports were not specifically requested by OIG, they were not discussed in the
report.

OIG Response
We contacted Middle States for clarification of this statement. Middle States informed us that
this statement referred to two document roadmaps for an institution that were provided to us as
an example of how roadmaps showed that the institution had addressed the standards. We added
a reference to these roadmaps in Issue No. 3.

Middle States Comments
Middle States stated that it also has some concern about OIG’s use of a judgmental sample of
institutions and stated that it is not clear whether the sample is a statistically valid representation.
Middle States stated that the selected sample disproportionately represents large institutions and
those that conducted a specific model of self-study that is used by a relatively small number of
Middle States institutions.

OIG Response
We stated in the Objectives, Scope, and Methodology section that our sample was based
primarily on the highest amount of title IV funding received for each type of institution. The
sample was judgmental and not intended to be a statistical representation of all the institutions
Middle States accredits. The size of the institutions and the type of self-study undertaken by the
institutions in our sample do not affect our conclusions related to Middle States’ lack of
minimum requirements for program length or the assignment of credit hours.

                                                   8
Middle States Comments
Middle States stated that most of the reports OIG requested were between five and eight years
old, and that the Commission has since updated its procedures and expectations.

OIG Response
Middle State’s statement concerning the self-study reports is not accurate. We noted in the
Objectives, Scope, and Methodology section that one self-study report was prepared in 2001, one
in 2004, one in 2005, two in 2006, and one in 2008. Four of the six self-study reports are less
than five years old. We also reviewed Middle State’s current Characteristics of Excellence in
Higher Education, which outlines Middle States’ requirements of affiliation and standards for
accreditation. We reported in Issue No. 1 and 2 that Middle States does not have minimum
requirements for program length or for the assignment of credit hours.

Middle States Comments
Middle States clarified a reference in the Middle States’ Perspective section of the report
concerning organizations of faculty and other professionals who are experts in their teaching
discipline.

OIG Response
We have modified that reference.



                 OBJECTIVES, SCOPE, AND METHODOLOGY


The objectives of this inspection were to determine:

   (1) What guidance Middle States provides to institutions regarding program length and credit
       hours,
   (2) What guidance Middle States provides to peer reviewers to assess program length and
       credit hours when evaluating institutions, and
   (3) What documentation Middle States maintains to demonstrate how it evaluates
       institutions’ program length and credit hours.

We notified Middle States of our inspection on June 18, 2009 and began our fieldwork on July 6,
2009.

We reviewed applicable laws and regulations related to the accreditation of institutions. We also
reviewed guidance that Middle States provided to its institutions and to its peer reviewers.

We reviewed Middle States’ institution files from a judgmental sample of institutions that
Middle States has accredited. We reviewed the following institutions: Art Institute of
Pittsburgh, Columbia University in the City of New York, New York University, Pennsylvania
State University, Strayer University, and University of Pittsburgh. We reviewed the most recent
self-study report for six decennial reviews—one for initial accreditation and five for
                                                9
reaccreditation. One self-study report was prepared in 2001, one in 2004, one in 2005, two in
2006, and one in 2008. We selected two public, two private, and two proprietary schools based
primarily on the highest amount of Title IV funding received for each type of institution.

We requested a listing of all institutions with a final action for a substantive change from
January 1, 2008 through June 1, 2009, as specified in 34 C.F.R. 22(a)(2)(iii) through (vi). We
reviewed three institutions with recent substantive changes to its program. We selected
Delaware State University because no institutions from Delaware were in our initial sample of
institutions undergoing a decennial review. We selected Georgian Court University because no
institutions from New Jersey were in our initial sample. We selected Touro College because
there has been previous audit and investigative work that had been done at the institution.

During our entrance conference, Middle States senior staff stated that it focused on program
length during the institution’s initial candidacy period. We reviewed Middle States’
documentation for three institutions seeking candidacy: Globe Institute of Technology,
International Graduate University, and Phillips Beth Israel School of Nursing.

Our inspection was performed in accordance with the 2005 President’s Council on Integrity and
Efficiency Quality Standards for Inspections appropriate to the scope of the inspection described
above.




                                               10
                            ADMINISTRATIVE MATTERS


In accordance with the Inspector General Act of 1978, as amended, the Office of Inspector
General is required to report to Congress twice a year on the audits that remain unresolved after
six months from the date of issuance.

In accordance with the Freedom of Information Act (5 U.S.C. §552), reports issued by the Office
of Inspector General are available to members of the press and general public to the extent
information contained therein is not subject to exemptions in the Act.

We appreciate the cooperation given us during this review. If you or your staff have any
questions, please contact W. Christian Vierling, Director of Evaluation and Inspection Services,
at (202) 245-6964.

Respectfully,

/s/

Wanda A. Scott
Assistant Inspector General
Evaluation, Inspection, and Management Services


Electronic cc: Daniel T. Madzelan, Delegated the Authority to Perform the Functions and Duties
               of the Assistant Secretary for Postsecondary Education




                                                11
Appendix

State/Territory                     Credit Hour Requirements
Maryland                            (1) An in-State institution shall award 1 semester hour of credit for:
Code of Maryland Regulations,            (a) A minimum of 15 hours, of 50 minutes each of actual class time,
§ 13B.02.02.16D                              exclusive of registration, study days, and holidays.
                                         (b) A minimum of 30 hours, of 50 minutes each of supervised laboratory
                                             or studio time, exclusive of registration, study days, and holidays;
                                         (c) A minimum of 45 hours, of 50 minutes each of instructional
                                             situations such as practica, internships, and cooperative education
                                             placements, when supervision is ensured and learning is documented;
                                             or
                                         (d) Instruction delivered by electronic media based on the equivalent
                                             outcomes in student learning in §D(1)(a) of this regulation, and may
                                             include a combination of telelessons, classroom instruction, student
                                             consultation with instructors, and readings, when supervision is
                                             ensured and learning is documented.
                                    (2) One quarter hour of credit is awarded for instruction equivalent to 2/3 of
                                         the contact hours required for 1 semester hour of credit.
New Jersey                          “Semester credit hour” means 50 minutes of face-to-face class activity each
New Jersey Administrative Code,     week for 15 weeks (or the equivalent attained by scheduling more minutes of
§ 9A:1-1.2                          face-to-face class activity per week for fewer weeks in the semester) in one
                                    semester complemented by at least 100 minutes each week of laboratory or
                                    outside assignments (or the equivalent thereof for semesters of different
                                    length).
New York                            Semester hour means a credit, point, or other unit granted for the satisfactory
Regulations of the Commissioner     completion of a course which requires at least 15 hours (of 50 minutes each)
of Education, Chapter II,           of instruction and at least 30 hours of supplementary assignments, except as
§ 50.1(o)                           otherwise provided pursuant to section 52.2(c)(4) of this Subchapter. This
                                    basic measure shall be adjusted proportionately to translate the value of other
                                    academic calendars and formats of study in relation to the credit granted for
                                    study during the two semesters that comprise an academic year.
Pennsylvania                        A semester credit hour represents a unit of curricular material that normally
Pennsylvania Code, Title 22,        can be taught in a minimum of 14 hours of classroom instruction plus
Subpart C, § 31.21                  appropriate outside preparation or the equivalent as determined by the
                                    faculty. A quarter credit hour represents a unit that can be taught in a
                                    minimum of 10 hours of classroom instruction, plus appropriate outside
                                    preparation or the equivalent as determined by the faculty.
Puerto Rico                         The total and proportion of credits required for completion of a degree must
Puerto Rico Council on Higher       correspond to established practices in institutions of higher education
Education, Regulation for           (general education, specialized area and concentration, electives, thesis, etc.),
Granting of Licenses to             or any other model of course classification identified by the institution. 2
Institutions of Higher Education,
Chapter V, Article 51.3(g)
Delaware                            None.
District of Columbia                None.
U.S. Virgin Islands                 None.


2
 English translation from the Puerto Rico Council on Higher Education, Regulation for Granting of Licenses to
Institutions of Higher Education, Chapter V, Article 51.3(g).

                                                       12
13
14
